APPENDIX
APPENDIX A:

Judgment of the United States District Court for the Southern
District of Iowa, 3:18-cr-00085-001 October 2, 2019 .................... 1

APPENDIX B:

Opinion of the Eighth Circuit Court of Appeals, 19-3249
September 22, 2020 ....................................................................... 8

APPENDIX C:

Judgment of the Eighth Circuit Court of Appeals, 19-3249
September 22, 2020 ..................................................................... 20

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 1 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
6KHHW

v1

81,7('67$7(6',675,&7&2857
SOUTHERN DISTRICT OF IOWA

JUDGMENT IN A CRIMINAL CASE

81,7('67$7(62)$0(5,&$

v.

&DVH1XPEHU 3:18-CR-00085-001

MARTELL ROBERTS

8601XPEHU 18843-030
Terence L. McAtee

'HIHQGDQW¶V$WWRUQH\

THE DEFENDANT:

✔SOHDGHGJXLOW\WRFRXQW V
G

One of the Indictment filed on October 17, 2018.

G SOHDGHGQRORFRQWHQGHUHWRFRXQW V
ZKLFKZDVDFFHSWHGE\WKHFRXUW

G ZDVIRXQGJXLOW\RQFRXQW V
DIWHUDSOHDRIQRWJXLOW\

The defendant is adjudicated guilty of these offenses:
Title & Section

?

18 U.S.C. §§ 922(g)(1),

Nature of Offense

Felon in Possession of Firearms and Ammunition

Offense Ended

Count

01/18/2018

One

924(a)(2)

See additional count(s) on page 2

7KHGHIHQGDQWLVVHQWHQFHGDVSURYLGHGLQSDJHV 2 WKURXJK 7
6HQWHQFLQJ5HIRUP$FWRI

RIWKLVMXGJPHQW The sentence is impRVHGSXUVXDQWWo the

G 7KHGHIHQGDQWKDVEHHQIRXQGQRWJXLOW\RQFRXQW V
G &RXQW V

G LV

G DUHdismiVVHGRQWKHPRWLRQRIWKH8QLWHG6WDWHV

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

October 2, 2019
'DWHRI,PSRVLWLRQRI-XGJPHQW

Signature of Judge

Rebecca Goodgame Ebinger, U.S. District Judge
1DPHRI-XGJH7LWOHRI-XGJH

October 2, 2019
'DWH

APPENDIX A
APP. p. 001

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 2 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 2 — Imprisonment
v1

Judgment Page: 2 of 7

DEFENDANT: MARTELL ROBERTS
CASE NUMBER: 3:18-CR-00085-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:
100 months as to Count One of the Indictment filed on October 17, 2018.

✔
G

The court makes the following recommendations to the Bureau of Prisons:

That the defendant be designated to FCI Pekin, FCI Oxford, or FCI Greenville; that the defendant be made eligible for the
Residential Drug Abuse Treatment Program (RDAP); and that the defendant be afforded the opportunity to participate in
vocational training in business administration or welding and programming related to psychology.

✔ The defendant is remanded to the custody of the United States Marshal.
G
G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before

on

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
a

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

APP. p. 002

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 3 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3 — Supervised Release
v1

DEFENDANT: MARTELL ROBERTS
CASE NUMBER: 3:18-CR-00085-001

Judgment Page: 3 of 7

SUPERVISED RELEASE

Upon release from imprisonment, you will be on supervised release for a term of :
Three years as to Count One of the Indictment filed on October 17, 2018.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
You
must
make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
G
restitution. (check if applicable)
✔You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a qualifying offense. (check if applicable)
G You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

APP. p. 003

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 4 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3A — Supervised Release
v1

Judgment Page: 4 of 7

DEFENDANT: MARTELL ROBERTS
CASE NUMBER: 3:18-CR-00085-001

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

APP. p. 004

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 5 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3D — Supervised Release
v1

DEFENDANT: MARTELL ROBERTS
CASE NUMBER: 3:18-CR-00085-001

Judgment Page: 5 of 7

SPECIAL CONDITIONS OF SUPERVISION
You must participate in a program of testing and/or treatment for substance abuse, as directed by the Probation Officer,
until such time as the defendant is released from the program by the Probation Office. At the direction of the probation
office, you must receive a substance abuse evaluation and participate in inpatient and/or outpatient treatment, as
recommended. Participation may also include compliance with a medication regimen. You will contribute to the costs of
services rendered (co-payment) based on ability to pay or availability of third party payment. You must not use alcohol
and/or other intoxicants during the course of supervision.
You shall not knowingly associate or communicate with any member of the Folk Nation, Gangster Disciple criminal street
gang, or any other criminal street gang.
You must participate in a cognitive behavioral treatment program, which may include journaling and other curriculum
requirements, as directed by the U.S. Probation Officer.
You will submit to a search of your person, property, residence, adjacent structures, office, vehicle, papers, computers (as
defined in 18 U.S.C. § 1030(e)(1)), and other electronic communications or data storage devices or media, conducted by a
U.S. Probation Officer. Failure to submit to a search may be grounds for revocation. You must warn any other residents
or occupants that the premises and/or vehicle may be subject to searches pursuant to this condition. An officer may
conduct a search pursuant to this condition only when reasonable suspicion exists that you have violated a condition of
your release and/or that the area(s) or item(s) to be searched contain evidence of this violation or contain contraband. Any
search must be conducted at a reasonable time and in a reasonable manner. This condition may be invoked with or
without the assistance of law enforcement, including the U.S. Marshals Service.

APP. p. 005

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 6 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
v1

Judgment Page: 6 of 7

DEFENDANT: MARTELL ROBERTS
CASE NUMBER: 3:18-CR-00085-001

CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

G Pursuant to 18 U.S.C. § 3573, upon the motion of the government, the Court hereby remits the defendant's Special Penalty

Assessment; the fee is waived and no payment is required.
Assessment
JVTA Assessment *
TOTALS
$ 100.00
$ 0.00

Fine
0.00
$

Restitution
$0.00

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

G The determination of restitution is deferred until
after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Restitution Ordered

Total Loss**

$0.00

TOTALS

Priority or Percentage

$0.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine

G restitution.

G restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

APP. p. 006

Case 3:18-cr-00085-RGE-SBJ Document 65 Filed 10/02/19 Page 7 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
v1

Judgment Page: 7 of 7

DEFENDANT: MARTELL ROBERTS
CASE NUMBER: 3:18-CR-00085-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $ 100.00
G
G not later than
✔ in accordance
G

G C,

due immediately, balance due

G D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

✔ F below; or
G
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

✔ Special instructions regarding the payment of criminal monetary penalties:
G

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

All criminal monetary payments are to be made to the Clerk's Office, U.S. District Court, P.O. Box 9344,
Des Moines, IA. 50306-9344.
While on supervised release, you shall cooperate with the Probation Officer in developing a monthly payment plan
consistent with a schedule of allowable expenses provided by the Probation Office.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All crimnal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):

✔ The defendant shall forfeit the defendant’s interest in the following property to the United States:
G
a loaded Remington .32 caliber semi-automatic handgun (S/N: PA90717), a loaded Rhom RG Model 14 .22 caliber
revolver (S/N: L782713), approximately 27 rounds of .32 caliber ammunition, and approximately 34 rounds of .22
caliber ammunition as outlined in the Preliminary Order of Forfeiture granted on May 21, 2019.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,(5) fine
interest, (6) community restitution, (7) JVTA assessment, and (8) costs, including cost of prosecution and court costs.

APP. p. 007

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-3249
___________________________
United States of America
Plaintiff - Appellee
v.
Martell Roberts
Defendant - Appellant
____________
Appeal from United States District Court
for the Southern District of Iowa - Davenport
____________
Submitted: June 18, 2020
Filed: September 22, 2020
____________
Before LOKEN and GRASZ, Circuit Judges, and CLARK*, District Judge.
____________
LOKEN, Circuit Judge.
Martell Roberts entered a conditional guilty plea to one count of being a felon
in possession of a firearm and ammunition, reserving the right to appeal the denial of
*

The Honorable Stephen R. Clark, United States District Judge for the Eastern
District of Missouri, sitting by designation.

Appellate Case: 19-3249

Page: 1

APPENDIX B
Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 008

his motion to suppress. See 18 U.S.C. §§ 922(g)(1), 922(g)(3), and 924(a)(2). On
appeal, Roberts argues the district court erred in denying his motion to suppress
because (1) the search warrant being executed when he made incriminating statements
was not supported by probable cause, (2) the statements should be suppressed because
he was in custody and was not provided Miranda warnings, and (3) the statements
were not made voluntarily. Roberts also argues the court erred in determining that he
has two prior convictions for a crime of violence or a controlled substance offense in
sentencing him to 100 months imprisonment. See USSG §§ 2K2.1(a)(2), 4B1.2(b).
For the reasons below, we affirm.1
I. Suppression Issues
At 4:22 a.m. on July 7, 2018, two men came from behind a nearby dumpster and
shot a man as he emerged from the Village Inn restaurant in Bettendorf, Iowa. After
extensive investigation, a team of police officers surrounded the Davenport residence
of Martell Roberts and his girlfriend, Dashala Sanders, on July 31 to execute a warrant
to search the residence and a 2007 silver Dodge Durango for firearms, ammunition,
shell casings, cellular phones, and a red hooded sweatshirt.
No one responded to repeated commands from the Emergency Response Unit’s
rescue vehicle. The vehicle’s ram was used to open the door. Roberts came out and
gave himself up. He was cuffed in plastic zip-ties for officer safety and placed behind
the armored vehicle while the apartment was secured. The officers confirmed that only
Roberts’s two young children remained inside. Bettendorf Police Lieutenant John
Majeske then left the search team, uncuffed Roberts, and suggested they talk in
Detective Bryan Payton’s unmarked police vehicle parked less than fifty feet away.

1

Roberts’s motion to suppress was denied by the Honorable Stephanie M. Rose.
He was sentenced by the Honorable Rebecca Goodgame Ebinger. Both are United
States District Judges for the Southern District of Iowa.
-2-

Appellate Case: 19-3249

Page: 2

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 009

Roberts agreed and followed the officers to the car. Detective Payton led audiorecorded questioning regarding the Village Inn shooting.
After forty five minutes, Majeske told Roberts two firearms were found in the
residence and asked where he got them. Roberts said he “guessed he was under arrest
now.” Majeske said he was not under arrest. Roberts admitted he brought the guns
into the residence from the Durango, where “Mike” had left them. The officers noted
possible federal firearm charges because they knew Roberts was a felon. Roberts said
it “sounds like I’m going to jail, regardless, I’m going to jail.” The officers did not
arrest Roberts, but Payton read Roberts his Miranda rights, despite Roberts saying “you
don’t have to.” Payton asked if Roberts wanted to continue to talk. Roberts replied,
“Not really,” but continued the interview. He eventually admitted driving a man he
knew as “Sko” to the Village Inn on the night of the shooting in the Durango, where
Sko later left the firearms. The officers arrested Roberts three hours later. They
continued pressuring him to cooperate in two more hours of questioning at the
Bettendorf police station without additional Miranda warnings.
A. Probable Cause for the Warrant
In his motion to suppress and on appeal, Roberts first argues the evidence seized
from his residence should be suppressed because there was no probable cause for the
search, and his statements should be suppressed as fruit of that poisonous tree. The
district court denied the motion, concluding that probable cause was established within
the four corners of the search warrant and its supporting affidavit and, in the
alternative, that the good-faith exception recognized in United States v. Leon, 468 U.S.
897, 923 (1984), would apply.
A warrant is supported by probable cause if the totality of the circumstances
demonstrates “a fair probability that contraband or evidence of a crime will be found
in the place to be searched.” United States v. Seidel, 677 F.3d 334, 337 (8th Cir.
-3-

Appellate Case: 19-3249

Page: 3

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 010

2012) (quotation omitted); see Illinois v. Gates, 462 U.S. 213, 230 (1983). Factors to
consider in determining whether a warrant application sufficiently links the items to
be seized with the place to be searched include “the nature of the crime and the
reasonable, logical likelihood of finding useful evidence.” United States v. Johnson,
848 F.3d 872, 878 (8th Cir. 2017). We review the issue of probable cause de novo,
according great deference to the determination of the magistrate or judge who issued
the warrant. United States v. Green, 954 F.3d 1119, 1123 (8th Cir. 2020). Our task
is to “determine whether the warrant’s issuing court had a substantial basis for finding
probable cause.” Id.
“When the issuing judge relied solely upon a supporting affidavit to issue the
search warrant,” as in this case, “only that information which is found within the four
corners of the affidavit may be considered in determining the existence of probable
cause.” United States v. Etheridge, 165 F.3d 655, 656 (8th Cir. 1999). Here, on July
25, 2018, an Assistant Scott County Attorney submitted the warrant application to a
Seventh Judicial District Judge, supported by the sworn Narrative Search Warrant
Application of Bettendorf Detective Sergeant Brad Levetzow. The affidavit recited
that it was based on, in addition to Levetzow’s personal knowledge, video surveillance
of the Village Inn parking lot at the time of the July 7 shooting and the attached
“investigative and police reports.”
Levetzow’s affidavit recited that, prior to the shooting, two females were in the
Village Inn restaurant with two suspects. One suspect arrived in a tan Ford Mustang
belonging to Antoine Flournoy, the other in a silver Nissan Altima belonging to
Flournoy’s girlfriend, Tennille Davis. “Both show 5901 Elmore Ave. #I6, Davenport
as their address.” When the victim arrived, the suspects canceled their food order,
moved their vehicles out of view from the Village Inn parking lot, and waited in their
vehicles for eleven minutes. A silver Dodge Durango arrived and drove through the
parking lot to where the other two vehicles were parked. The Durango reappeared,
drove through the parking lot, and dropped off suspect #1, a man dressed in a red
-4-

Appellate Case: 19-3249

Page: 4

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 011

hooded sweatshirt. Suspect #1 ran to a dumpster, joined suspect #2, and both men shot
the victim as he left the Village Inn and walked to his vehicle. The shooters fled and
were picked up by the Durango, which drove back to the shooters’ vehicles. All three
vehicles then drove off together, turning north onto Interstate 74.
The affidavit further recites: (1) Flournoy’s Mustang was stopped by Moline
police on July 23. Flournoy was cited for no valid license, released, and was picked
up by the Nissan Altima. (2) When stopped, Flournoy was being followed by a silver
Dodge Durango registered to Sanders at 5901 Elmore Ave. #R1, Davenport. The
Durango was stopped, and the officer later identified the driver as Roberts, whose
address is also 5901 Elmore Ave. #R1, Davenport. (3) Flournoy’s Mustang was towed
and ammunition was found in the trunk. (4) Police records show a May 17 traffic stop
in Davenport in which Roberts and Flournoy were in the Durango.
The affidavit states that this information indicates the Mustang, Altima, and
Durango “are related to our shooting,” and it indicates “relationships by address and
involvements between” Flournoy and Davis, Roberts and Sanders, and Flournoy and
Roberts. In addition, the July 7 video indicates the three vehicles “met up prior to the
shooting and fled the area together. In order for this to happen there needed to be
communication between the involved parties by the use of cellular phones.” The
application requested a warrant to search the Dodge Durango and “5901 Elmore Ave.
#R1, Davenport, IA” for firearms, ammunition, cell phones, and the red sweatshirt.
The District Judge issued the warrant, reciting that the items to be seized are property
used or possessed with intent to be used to commit an offense or concealed to prevent
discovery of an offense, and property “relevant and material as evidence in a criminal
prosecution.” A team of officers executed the warrant on July 31.
On appeal, Roberts argues the application failed to establish sufficient nexus
between evidence to be seized and the place to be searched because nothing in the
affidavit suggested that Roberts was in the Durango at the time of the shooting or that
-5-

Appellate Case: 19-3249

Page: 5

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 012

any contraband or evidence of a crime would be found in Roberts’s possession. “The
determination of whether or not probable cause exists to issue a search warrant is to
be based upon a common-sense reading of the entire affidavit.” Seidel, 677 F.3d at
338 (cleaned up). We agree with the district court that the detailed affidavit provided
the warrant-issuing judge “a substantial basis for finding probable cause.” Green, 954
F.3d at 1123.
The surveillance video established that a silver Dodge Durango was at the
Village Inn shooting and drove one shooter in a red hooded sweatshirt to a place from
which he ran to the dumpster and shot the victim. The Durango picked up the shooters
as they fled, and -- joining the Mustang and Altima -- left the scene. Police records
established that Roberts was driving a silver Durango as it followed Flournoy’s
Mustang on July 23, and that Flournoy was with Roberts when the Durango was
stopped in May. Roberts lived with Sanders at the Elmore address. The address for
Flournoy and Davis was a different unit at the same address. This information gave
the issuing judge probable cause to believe that Roberts drove the Durango on the night
of the shooting, and that evidence of the crime that had not yet been discovered -- the
firearms, ammunition, red hooded sweatshirt, and cell phones used to communicate
between the shooters and the driver of the Durango -- would be found in the Durango
or in the residence Roberts shared with Sanders. See United States v. Steeves, 525
F.2d 33, 38 (8th Cir. 1975) (people generally keep firearms at home or on their
person). Thus, the totality of the circumstances found within the four corners of the
search warrant affidavit created “a fair probability that contraband or evidence of a
crime will be found in the place[s] to be searched.” Seidel, 677 F.3d at 337.
As we conclude the issuing judge had probable cause to issue the warrant, we
need not consider the district court’s alternative ruling that evidence seized in the
warrant search would not be suppressed because the good faith exception applies. See
generally United States v. Proell, 485 F.3d 427, 430 (8th Cir. 2007). Nor need we

-6-

Appellate Case: 19-3249

Page: 6

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 013

consider Roberts’s contention that his incriminating statements were fruit of an
unlawful warrant search.
B. The Statements Issues
Roberts moved to suppress statements he made while being questioned in
Detective Payton’s vehicle as his residence was being searched. He argues that he was
interrogated while in custody without being provided the constitutionally required
Miranda warnings, and that all his incriminating statements in the vehicle and later at
the Bettendorf police station were involuntarily obtained in violation of his due process
rights. Lieutenant Majeske and Detective Payton testified at the suppression hearing.
The district court found both to be credible. The record also included the audio
recording of nearly seven hours of conversation between Roberts and the officers in
Payton’s vehicle and at the police station. The court concluded that Roberts was not
in custody prior to the time when Detective Payton gave him Miranda warnings and
that his statements were not involuntary.
1. The Custody Issue. Law enforcement officials must administer Miranda
warnings before interrogating persons in their custody. Miranda v. Arizona, 384 U.S.
436, 444 (1966). Here, the officers in testifying generally described their lengthy
questioning of Roberts as an interview of a potential witness to the shooting. But it is
undisputed that their questioning in the police vehicle was interrogation under
Miranda, so the issue is whether Roberts was in custody. See, e.g., United States v.
Bordeaux, 400 F.3d 548 (8th Cir. 2005). We review the district court’s factual
findings for clear error and its legal conclusions, including the question of custody, de
novo. United States v. LeBrun, 363 F.3d 716, 719 (8th Cir. 2004) (en banc) (standard
of review), cert. denied, 543 U.S. 1145 (2005).
Absent formal arrest, the police must give Miranda warnings when a suspect’s
freedom of movement is restricted to a degree akin to a formal arrest. California v.
-7-

Appellate Case: 19-3249

Page: 7

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 014

Beheler, 463 U.S. 1121, 1125 (1983). The issue turns on whether a reasonable person
in the suspect’s shoes would have felt free to end the interview. United States v.
Vinton, 631 F.3d 476, 481 (8th Cir.), cert. denied, 565 U.S. 866 (2011). We consider
the totality of the circumstances confronting the defendant. United States v. Czichray,
378 F.3d 822, 826 (8th Cir. 2004), cert. denied, 544 U.S. 1060 (2005). The inquiry
typically focuses on six non-exclusive factors enumerated in United States v. Griffin,
922 F.2d 1343, 1349 (8th Cir 1990), which the district court considered in this case.
However, “it is important to recall that the [Griffin] factors are not by any means
exclusive, and that ‘custody’ cannot be resolved merely by counting up the number of
factors on each side of the balance.” Czichray, 378 F.3d at 827.
“The most obvious and effective means of demonstrating that a suspect has not
been taken into custody . . . is for the police to inform the suspect that an arrest is not
being made and that the suspect may terminate the interview at will.” Griffin, 922
F.2d at 21349. This is “powerful evidence that a reasonable person would have
understood that he was free to terminate the interview.” Czichray, 378 F.3d 826. This
principle is of particular importance in a case such as this, where the questioning
occurred during the execution of a warrant search that involved a high risk to officer
safety, the investigation of a shooting crime. Some Griffin factors that suggest a
suspect is in custody in other circumstances are inherent in this situation. The police
are there in numbers and armed; the place to be searched had to be forcefully entered
when no one responded; and Roberts when he emerged was flex-cuffed and escorted
away from the premises for the officers’ and his own safety. See United States v.
Williams, 760 F.3d 811, 815 (8th Cir. 2014).2 Moreover, it is well established that the

2

Even in less dangerous circumstances, handcuffing for officer safety and
supervision during an interview do not render the interrogation custodial. See United
States v. Giboney, 863 F.3d 1022, 1028 (8th Cir.), cert. denied, 138 S. Ct. 527 (2017);
Czichray, 378 F.3d at 825, 830; United States v. Martinez, 462 F.3d 903, 907 (8th Cir.
2006), cert. denied, 549 U.S. 1272 (2007).
-8-

Appellate Case: 19-3249

Page: 8

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 015

police may detain persons found in the home for the duration of the search to “prevent
flight in the event that incriminating evidence is found” and facilitate “the orderly
completion of the search.” Michigan v. Summers, 452 U.S. 692, 702-03 (1981); see
L.A. Cty. v. Rettele, 550 U.S. 609, 613-14 (2007); Muehler v. Mena, 544 U.S. 93, 9899 (2005). Depending on the totality of the circumstances, questioning of those being
detained during a warrant search may or may not cross the line and become custodial
interrogation requiring Miranda warnings. See United States v. Burns, 37 F.3d 276,
280-81 (7th Cir. 1994), cert. denied, 515 U.S. 1149 (1995) (no custody). But the
remaining Griffin factors, though relevant, are of little help in drawing that line. When
interviewing a person present during a warrant search, efforts by the officers to assure
the person that he is not under formal arrest or obligated to answer questions become
even more significant than in the more typical witness interview. See United States v.
Sutera, 933 F.2d 641, 646-48 (8th Cir. 1991).
Here, the recorded questioning makes clear that both Lieutenant Majeske and
Detective Payton repeatedly assured Roberts he was not under arrest and could stop the
questioning at any time, and that Roberts understood his freedom to do so. At the start
of the questioning, the officers assured Roberts he was not under arrest, that he did not
need to talk to the officers, and that he could stop at any time. “[W]hile advising
someone that he or she is not under arrest helps to mitigate an interview’s custodial
nature, an explicit assertion that the person may end the encounter is stronger
medicine.” United States v. Ollie, 442 F.3d 1135, 1138 (8th Cir. 2006).
After forty five minutes, Majeske told Roberts firearms were found in the
residence, and Roberts said he “guessed he was under arrest now.” Majeske again said
he was not under arrest. Later, after Sanders returned, Payton moved his vehicle
directly in front of the Davenport residence. Sanders knocked at the passenger
window, where Roberts was sitting, and asked Payton if Roberts was under arrest.
Payton again said he was not under arrest and agreed to Sanders’s request that she
speak with Roberts outside the vehicle. As in Bordeaux, after a three-minute private
-9-

Appellate Case: 19-3249

Page: 9

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 016

conversation with Sanders, Roberts walked back and reentered the vehicle. 400 F.3d
at 559. Lieutenant Majeske returned to the vehicle and suggested they continue the
interview at the station because a news van was searching the scene. Roberts objected,
Payton said it was up to Roberts, and questioning continued in the vehicle.
Roberts argues these assurances did not negate the perception Roberts was in
custody because the officers did not tell him “you are free to leave at any time.” In
many situations, that may be an effective way to tell a person he is not under formal
arrest. But being free to leave may not necessarily be accurate when officers have
discretion to detain a person during execution of a warrant search. Cf. United States
v. New, 491 F.3d 369, 373-74 (8th Cir. 2007) (immobile hospital patient not in
custody when told he was free to terminate the interview). Of course, there is
discretion to end detention of persons present during a warrant search. But when a
person is lawfully detained, the assurances the officers repeatedly gave Roberts -- you
are not under arrest and may stop answering our questions at any time -- are likely
sufficient to refute the notion he is in custody under Miranda. As we said in Czichray,
“[a]gainst a backdrop of repeated advice that he was free to terminate the interview,
[Roberts’s] decision not to terminate the interview . . . suggests an exercise of free will,
rather than restraint to a degree associated with formal arrest.” 378 F.3d at 829, citing
Yarborough v. Alvarado, 541 U.S. 652, 655-58, 663-65 (2004).
Roberts further argues the interrogation was coercive because the officers
emphasized he had a lot to lose if he did not cooperate as a witness, including his
children and his job. But the interrogation did not become custodial simply because
the officers “advise[d] [Roberts] of the potential course[s] and consequences of a
criminal investigation,” letting him weigh his options and make an informed decision
whether cooperation that involved incriminating disclosures might be in his best
interest. Czichray, 378 F.3d at 829. The officers spoke in a conversational tone,
repeatedly emphasizing it was Roberts’s decision whether to cooperate.

-10-

Appellate Case: 19-3249

Page: 10

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 017

For these reasons, we agree with the district court that Roberts was not in the
officers’ custody when he made incriminating statements prior to being given Miranda
warnings after he was told firearms were found in his residence.
2. The Voluntariness Issue. Roberts further argues that his incriminating
statements must be suppressed because they were not voluntary. A statement is
involuntary when it was extracted by threats, violence, or express or implied promises
sufficient to overbear the defendant’s will and critically impair his capacity for selfdetermination. Simmons v. Bowersox, 235 F.3d 1124, 1132 (8th Cir.), cert. denied,
534 U.S. 924 (2001). Voluntariness is determined based on the totality of the
circumstances. LeBrun, 363 F.3d at 724.
Roberts argues his statements were involuntary because the officers pressured
him to cooperate by offering to help him avoid eviction if he cooperated, made it clear
the only way to avoid arrest and potential prosecution as a shooter was to cooperate,
confronted him with the possibility of federal charges and losing his children and his
job, and halted the arrest process during the interrogation because Roberts “had more
he wants to say.” We agree with the district court that none of these tactics amounted
to improper threats or promises that overbore Roberts’s will. As the officers testified,
they believed Roberts drove the Durango the night of the shooting but did not shoot the
victim. Therefore, in the interview, they tried to persuade Roberts to become a witness
against the shooters and put psychological pressure on him to do so. Roberts
understood his rights and carefully weighed the risks and benefits of incriminating
cooperation throughout the protracted interview, showing that his will was not
overcome at any point. See Simmons, 235 F.3d at 1133-34. Absent improper threats,
use of physical force, or intimidation tactics, psychological pressure almost never
renders a confession involuntary. See Lebrun, 363 F.3d at 724; Jenner v. Smith, 982
F.2d 329, 334 (8th Cir. 1993).
The district court properly denied Roberts’s motion to suppress.
-11-

Appellate Case: 19-3249

Page: 11

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 018

II. The Sentencing Issue
Roberts argues the district court erred in determining he has two prior
convictions for a crime of violence or a controlled substance offense. USSG
§§ 2K2.1(a)(2), 4B1.2(b). Based on this court’s controlling precedent, the court
determined that Roberts has two prior convictions for controlled substance offenses,
a prior Illinois conviction for manufacture or delivery of a controlled substance, 720
ILCS 570/401(c)(2), and a prior Iowa conviction for possession with intent to deliver
cocaine base, Iowa Code § 124.401(1)(C). We review these determinations de novo.
United States v. Maldonado, 864 F.3d 893, 897 (8th Cir. 2017).
Roberts argues his Illinois conviction did not qualify because the statute
criminalizes inchoate offenses, making it categorically overbroad. We have rejected
this argument repeatedly and are bound by these prior decisions. United States v.
Mendoza-Figueroa, 65 F.3d 691, 694 (8th Cir. 1995) (en banc); United States v.
Merritt, 934 F.3d 809, 811 (8th Cir. 2019); United States v. Davis, 801 F. App’x 457
(8th Cir. 2020).3
Roberts argues the Iowa conviction was not for a controlled substance offense
because the Iowa law governing attempt offenses is overbroad. We rejected this
argument in United States v. Boleyn, 929 F.3d 932 (8th Cir. 2019). Roberts urges us
to overturn Boleyn, but only the court en banc may do so. See United States v. Meeks,
639 F.3d 522, 529 (8th Cir. 2011).
The judgment of the district court is affirmed.
______________________________

3

Roberts first argues on appeal that the statute is overbroad because it includes
controlled substances not included in the federal definition. We decline to consider this
argument. See United States v. Rees, 447 F.3d 1128, 1130 (8th Cir. 2006).
-12-

Appellate Case: 19-3249

Page: 12

Date Filed: 09/22/2020 Entry ID: 4958051
APP. p. 019

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-3249
___________________
United States of America
Plaintiff - Appellee
v.
Martell Roberts
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Southern District of Iowa - Davenport
(3:18-cr-00085-RGE-1)
______________________________________________________________________________
JUDGMENT

Before LOKEN, GRASZ, Circuit Judges and CLARK, District Judge.

This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
September 22, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans
APPENDIX C

Appellate Case: 19-3249

Page: 1

Date Filed: 09/22/2020 Entry ID: 4958074

APP. p. 020

Adopted April 15, 2015
Effective August 1, 2015
Revision of Part V of the Eighth Circuit Plan to Implement the Criminal Justice Act of
1964.
V. Duty of Counsel as to Panel Rehearing, Rehearing En Banc, and Certiorari
Where the decision of the court of appeals is adverse to the defendant in whole or in part, the
duty of counsel on appeal extends to (1) advising the defendant of the right to file a petition for
panel rehearing and a petition for rehearing en banc in the court of appeals and a petition for writ
of certiorari in the Supreme Court of the United States, and (2) informing the defendant of
counsel's opinion as to the merit and likelihood of the success of those petitions. If the defendant
requests that counsel file any of those petitions, counsel must file the petition if counsel
determines that there are reasonable grounds to believe that the petition would satisfy the
standards of Federal Rule of Appellate Procedure 40, Federal Rule of Appellate Procedure 35(a)
or Supreme Court Rule 10, as applicable. See Austin v. United States, 513 U.S. 5 (1994) (per
curiam); 8th Cir. R. 35A.
If counsel declines to file a petition for panel rehearing or rehearing en banc requested by the
defendant based upon counsel's determination that there are not reasonable grounds to do so,
counsel must so inform the court and must file a written motion to withdraw. The motion to
withdraw must be filed on or before the due date for a petition for rehearing, must certify that
counsel has advised the defendant of the procedures for filing pro se a timely petition for
rehearing, and must request an extension of time of 28 days within which to file pro se a petition
for rehearing. The motion also must certify that counsel has advised the defendant of the
procedures for filing pro se a timely petition for writ of certiorari.
If counsel declines to file a petition for writ of certiorari requested by the defendant based on
counsel's determination that there are not reasonable grounds to do so, counsel must so inform
the court and must file a written motion to withdraw. The motion must certify that counsel has
advised the defendant of the procedures for filing pro se a timely petition for writ of certiorari.
A motion to withdraw must be accompanied by counsel's certification that a copy of the motion
was furnished to the defendant and to the United States.
Where counsel is granted leave to withdraw pursuant to the procedures of Anders v. California,
386 U.S. 738 (1967), and Penson v. Ohio, 488 U.S. 75 (1988), counsel's duty of representation is
completed, and the clerk's letter transmitting the decision of the court will notify the defendant of
the procedures for filing pro se a timely petition for panel rehearing, a timely petition for
rehearing en banc, and a timely petion for writ of certiorari.

Appellate Case: 19-3249

Page: 1

Date Filed: 09/22/2020 Entry ID: 4958074
APP. p. 021

